OIG Investigative Reports, Saginaw Man Sentenced on Student Loan and Bank Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
CONTACT:     Gina Balaya  (313) 226-9758
U.S. Department of Justice
Terrence Berg
United States Attorney
Eastern District of Michigan
Suite2001
211 W.Fort Street
Detroit, Michigan 48226-3277
Oct 21, 2009
Event: Sentenced
Defendant: Lorenzo Pierson
Saginaw Man Sentenced on Student Loan and Bank Fraud Charges
A Saginaw man was sentenced to 27 months in prison to be followed by 3 years of supervised release on charges that he fraudulently obtained student financial aid, announced United States Attorney Terrence Berg.
Receiving the sentence was Lorenzo Pierson, age 36, of Saginaw, Michigan. Pierson had previously pleaded guilty to a student loan fraud charge and a bank fraud charge before United States District Judge Thomas L. Ludington on March 26, 2009. In addition to the prison time, Judge Ludington also ordered Pierson to pay restitution to the various victims of his loan fraud scheme.
According to court records, between 1999 and January of 2007, Pierson obtained $47,273 in federal direct student financial aid from the U.S. Department of Education, and also obtained a multitude of private student loans from federally insured banks. Much of the financial aid money obtained by Pierson was not used for the intended educational purposes. In fact, Pierson has yet to receive his degree, despite having obtained a total of over $366,000 in combined federal and private student financial aid. Pierson also obtained a mortgage by providing false documentation regarding his earnings during the same time period.
Pierson came to the attention of law enforcement authorities when a concerned citizen reported that Pierson was negotiating student financial aid checks, but not applying the money to educational expenses. As a result of that tip, agents from the Federal Bureau of Investigation and the U.S. Department of Education launched an investigation aimed at exposing Pierson’s fraud.
U.S. Attorney Berg commended the efforts of the investigation agents, as well as those of the concerned citizen who brought Pierson’s fraud to the attention of authorities.
Printable view
Last Modified: 10/22/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov